         Office of Inspector General




September 8, 2006

MEGAN J. BRENNAN
VICE PRESIDENT, NORTHEAST AREA

SUBJECT: Management Advisory – Delivery and Retail Standard Operating
         Procedures – Northeast Area (Report Number DR-MA-06-004)

This report presents the results of our review of the implementation of Delivery
and Retail Standard Operating Procedures (SOP) in the Northeast Area (Project
Number 06XG016DR007). Our overall objective was to assess implementation
of Delivery and Retail SOP in the Northeast Area. This is one in a series of
reports on Delivery and Retail Operations issued under the Value Proposition
Agreement between the Vice President, Delivery and Retail, and the U.S. Postal
Service Office of Inspector General Delivery and Retail directorate. The
information in this report will be included in a nationwide capping report
assessing implementation of Delivery and Retail SOP.

Northeast Area officials implemented the Delivery and Retail SOP for city and
rural delivery and Function 4 (customer service) operations. Implementation
included training supervisors and managers, developing action steps for “vital
few” units, and outlining future plans to complete remaining reviews and
certifications by the end of fiscal year 2006. Officials also certified delivery
and retail units under Morning SOP and Rural Delivery SOP and conducted
Function 4 reviews. Based on our review of the city and rural delivery and
Function 4 SOP, the Northeast Area implemented each component of the SOP.

Area officials were continuing to address the challenges associated with the “vital
few” performers. Officials expressed concern with the accuracy of the base
volume calculation in the Delivery Operations Information System. We recognize
area officials’ concerns and we plan to address this issue in the capping report to
Postal Service Headquarters.

We are making no recommendations in this report to Northeast Area
management.
We appreciate the cooperation and courtesies provided by your staff during the
review. If you have any questions or need additional information, please contact
Rita F. Oliver, Director, Delivery and Retail, or me at (703) 248-2300.

 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    E. Lynn Smith
    Steven R. Phelps
Delivery and Retail Standard Operating Procedures –                                          DR-MA-06-004
 Northeast Area

                                         INTRODUCTION
Background                        Each day the U.S. Postal Service receives and delivers over
                                  700 million pieces of mail. The Postal Service delivers mail
                                  to 144 million city and rural addresses across a network of
                                  37,000 post offices and retail outlets. To receive and deliver
                                  the mail, the Postal Service has an annual field budget of
                                  approximately $60 billion of which roughly 51 percent is
                                  used for delivery and retail operations. Annual salary and
                                  benefits in fiscal year (FY) 2006 for rural and city carriers
                                  total about $22 billion and approximately $8 billion for
                                  Function 4 (customer service) operations. The Northeast
                                  Area’s FY 2006 budget is $1.4 billion for city delivery
                                  operations, $382 million for rural delivery operations, and
                                  $703 million for Function 4 operations. The area is
                                  responsible for eight districts and services approximately
                                  3,000 delivery and retail units.1

                                  To ensure the efficient use of resources, the Vice President,
                                  Delivery and Retail, issued a letter on September 30, 2005,
                                  stating that all delivery and retail units will officially implement
                                  the Standard Operating Procedures (SOP) beginning in
                                  FY 2006 to establish standard practices for managing all
                                  delivery and retail functions. In November 2005, Postal
                                  Service senior management officials requested2 audit
                                  assistance from the U.S. Postal Service Office of Inspector
                                  General (OIG) to assess implementation of the SOP and
                                  determine how the area is monitoring the units on the “vital
                                  few” list. In response to the request, the OIG began its
                                  nationwide review of the Postal Service’s implementation of
                                  SOP in January 2006.

                                  The SOP consists of procedures to manage city and rural
                                  delivery and Function 4 operations. Postal Service officials
                                  must implement the SOP consistently and establish a review
                                  process to validate that the programs are operable. Officials




1
  Some of these units do not have all three components: city delivery, rural delivery, and retail operations.
Therefore, they do not have budgeted workhours for all three operations.
2
  As a result of the FY 2006 Risk Assessment and Prioritization process, the field identified Delivery
Operations – Volume Integrity and Performance Controls – as one of the high priority risk areas. The
Deputy Postmaster General and Chief Operating Officer recommended that the areas have the field Internal
Control Group personnel review mail volume measurement and recording processes. A national review was
conducted. Volume recording is a required procedure in city delivery operations. The OIG also reviewed
this area during its review of the SOP.



                                                      1
Delivery and Retail Standard Operating Procedures –                                           DR-MA-06-004
 Northeast Area



                                  must also take appropriate responsibility for developing plans
                                  that will assure that the SOP are understood and functional.

                                  Morning SOP (AMSOP) is an important component of
                                  city delivery SOP. AMSOP standardizes daily city carrier
                                  functions to align actual workhours to base workhours.
                                  The FY 2006 goal is to certify3 all level 224 and above
                                  Delivery Operations Information System (DOIS) sites by
                                  September 30, 2006.

                                  The Rural Delivery SOP (RDSOP) standardizes daily rural
                                  carrier functions to align actual workhours to standard
                                  workhours. The FY 2006 goal is to certify5 75 percent of
                                  units with 10 or more rural routes and those units identified
                                  as “vital few.”

                                  The Function 4 operations goal is to provide a standardized
                                  and comprehensive structure for the development of an
                                  integrated review cycle that continually identifies and
                                  quantifies savings opportunities. In addition, management
                                  should conduct Function 4 Business Reviews6 to identify
                                  units with the largest opportunity for workhour improvements.

                                  A key component of the SOP is the identification of “vital few”
                                  units. These units have the largest opportunity for
                                  improvement in city and rural delivery and Function 4
                                  operations and require specific management actions. Postal
                                  Service Headquarters provides area officials with the “vital
                                  few” list quarterly based on the performance of the previous
                                  quarter. The area monitors the “vital few” units and develops
                                  action plans to correct their performance issues in city and
                                  rural delivery and Function 4 operations.



3
  District program managers conduct a certification audit of a city delivery unit’s operations to determine if
supervisors are matching workhours to workload, time attendance reports, office configuration, and use of
authorized overtime. Units must achieve a score of 95 or greater for certification.
4
  A level 22 post office is a grade level assigned to the postmaster of a post office according to the total
number of workload service credits attributed to the facility. The credits are based on a combination of the
responsibilities of the postmaster, the amount of employees, the size of the facility, and various operations
performed within each post office.
5
  District program managers conduct a formalized rural management review focusing on improving efficiency
in an evaluated workload environment to achieve a closer alignment of actual to standard hours, reduced
overtime, and reduction in auxiliary assistance hours. Units must achieve a score of 85 or greater for
certification.
6
  The on-site review focuses on improving efficiency in an evaluated workload environment, which will result
in closer alignment of actual hours to budgeted hours. Function 4 SOP teams complete the on-site reviews
and an Integrated Operations Business Plan Committee provides critical support to ensure attainment of
major organizational targets.

                                                      2
Delivery and Retail Standard Operating Procedures –                                        DR-MA-06-004
 Northeast Area



                                 Postal Service Headquarters provided delivery and retail
                                 standardization training to Area Managers of Delivery
                                 Support Programs on September 8 and 9, 2005. In addition,
                                 Postal Service Headquarters issued a memorandum on
                                 October 13, 2005, to each area outlining the area’s
                                 responsibility for training managers on the SOP. Each area
                                 was responsible for training districts by October 31, 2005.
                                 The districts were responsible for completing training for all
                                 levels of management by November 15, 2005. Further,
                                 Postal Service Headquarters requested that each area
                                 establish a review process to validate whether the SOP were
                                 adopted to ensure consistent implementation. Finally, Postal
                                 Service Headquarters informed area officials that the “vital
                                 few” list requires their attention and monitoring, which
                                 includes action plans to correct performance issues in city
                                 and rural delivery and Function 4 operations.

Objective, Scope and             Our overall objective was to assess implementation of
Methodology                      Delivery and Retail SOP in the Northeast Area. Specifically,
                                 we determined whether Northeast Area officials have
                                 implemented SOP in city and rural delivery and Function 4
                                 operations. The scope of this review focused on whether
                                 area officials implemented the SOP at the area level and
                                 excluded review at selected district and delivery and retail
                                 units within the area. We did not determine the effectiveness
                                 of the implemented SOP at this time, but plan to perform
                                 future reviews and identify opportunities to increase revenue,
                                 reduce costs, and improve customer service.

                                 We visited Postal Service Headquarters and the Northeast
                                 Area to interview management officials and obtain
                                 performance data. We selected the Northeast Area7 to
                                 review based on discussions with Postal Service
                                 Headquarters Delivery and Retail officials and review of
                                 FY 2006 delivery and retail performance data for week 10.8
                                 We reviewed and analyzed performance data obtained
                                 from Postal Service systems from October 2005 through
                                 May 2006 and discussed the results with Postal Service
                                 officials. 9 We relied on data from these systems to conduct

7
  We performed an area level review in the Eastern, Pacific, Western, Northeast, and New York Metro
Areas. We performed work at the area and selected districts and delivery and retail units in the Capital
Metro, Great Lakes, Southeast, and Southwest Areas.
8
  Week 10 performance data was only for that specific week. The weekly performance data roll-up
processes began in week 14, with year-to-date information available beginning with week 19.
9
  During our review timeframe, we analyzed performance data roll-up information for week 19 year-to-date
and week 34 year-to-date.

                                                    3
Delivery and Retail Standard Operating Procedures –                        DR-MA-06-004
 Northeast Area

                              interviews and analysis. However, we did not directly audit
                              the systems, but discussed with Postal Service officials the
                              relevance of the data to delivery and retail performance
                              during our fieldwork.

                              We conducted this review from January through
                              September 2006, in accordance with the President’s Council
                              on Integrity Efficiency, Quality Standards for Inspections. We
                              discussed our observations and conclusions with appropriate
                              management officials and included their comments where
                              appropriate.

Prior Audit Coverage          The OIG has issued 12 audit reports related to delivery and
                              retail operations. While none of these reports are directly
                              related to our objective, they do identify opportunities to
                              improve management of delivery and retail operations. The
                              details of the reports are included in Appendix A of this
                              report.




                                                4
Delivery and Retail Standard Operating Procedures –                                   DR-MA-06-004
 Northeast Area

                                                 RESULTS
Implementation of                   Northeast Area officials implemented the SOP in city and
Standard Operating                  rural delivery and Function 4 operations which included:
Procedures
                                         •    Training supervisors and managers responsible for
                                              city and rural delivery and Function 4 operations SOP
                                              to allow further implementation by the district and unit
                                              levels.

                                         •    Developing action steps for units identified as “vital
                                              few.”

                                         •    Outlining future plans to complete reviews on the
                                              remaining AMSOP, RDSOP and Function 4 Business
                                              Review locations by September 30, 2006.

                                     Northeast Area officials had certified 26 percent (47 of 180)
                                     of their level 22 and above DOIS sites under AMSOP.
                                     During FY 2006, week 34 year-to-date, the city delivery
                                     office hours (percent to standard) exceeded standard
                                     workhours by 100.54 percent. This was an increase in
                                     hours from week 19 year-to-date, when the office hours
                                     exceeded the standard hours by 96.56 percent. During this
                                     same period, the deliveries per hour percentage exceeded
                                     the same period last year percentage by 1.83 percent. This
                                     was an increase from week 19 year-to-date, when the
                                     deliveries per hour percentage exceeded the same period
                                     last year percentage by 1.22 percent.10

                                     Further, area officials had certified 34 percent (50 of 147)
                                     of their rural units. During FY 2006, week 34 year-to-date,
                                     rural delivery total actual workhours exceeded standard
                                     workhours by 4.26 percent. This was a decrease from
                                     week 19 year-to-date, when the actual hours exceeded the
                                     standard hours by 4.77 percent.

                                     Finally, area officials had conducted Function 4 Business
                                     Reviews at 94 percent (171 of 182) of their planned
                                     locations.11 During FY 2006, week 34 year-to-date,
                                     Function 4 total earned hour variance was 783,391
                                     workhours. This was an increase from week 19 year-to-date
                                     when the earned hour variance was 362,610 workhours.
                                     During the same period, the window staffing efficiency for

10
     We are planning a future review on city carrier street performance.
11
     This data is current as of May 2006.

                                                        5
Delivery and Retail Standard Operating Procedures –                          DR-MA-06-004
 Northeast Area

                              week 34 was 81.7 percent. This was a decrease from week
                              19 year-to-date when the window staffing efficiency was
                              84.8 percent.

                              Based on our review of the city and rural delivery and
                              Function 4 operations SOP, the Northeast Area
                              implemented each component of the SOP. (See
                              Appendix B.)

                              Area officials were continuing to address the challenges
                              associated with the “vital few” performers. Officials
                              expressed concern with the accuracy of the base volume
                              calculation in the DOIS. We recognize area officials’
                              concern and plan to address this issue in the capping report
                              to Postal Service Headquarters officials.

“Vital Few” Lists             Northeast Area officials were continuing to address the
                              challenges associated with their “vital few” performers. Area
                              officials indicated that many offices are not meeting AMSOP
                              targets because the districts and delivery and retail units had
                              not established or updated integrated operating plans (IOP).
                              However, the area officials indicated that Boston District
                              officials had been successful in establishing and updating
                              their IOP to meet the changing needs of processing and
                              delivery operations. To improve performance in the other
                              districts, Northeast Area officials indicated they plan to use
                              the Boston District as a benchmark for the other districts.

                              Northeast Area officials also indicated that the accuracy of
                              the base volume calculation in the DOIS was a challenge.
                              Specifically, officials noted that since some information in
                              DOIS is incorrect, many of the units were not able to
                              complete the 8-point question on the AMSOP Certification
                              which asks “Is the Delivery Operations Information System
                              Route Base Information accurate?” To correct this problem,
                              area officials were conducting counts and inspections and
                              recording the results on Postal Service Form 1840, Carrier
                              Delivery Route Summary of Count and Inspection, to
                              capture a more accurate profile of the mail.

                              Area officials were conducting weekly teleconferences with
                              district officials on the city and rural delivery and Function 4
                              operations to discuss areas that need improvement. In
                              addition, area officials and the vice president were
                              conducting bimonthly visits to low performing units to
                              observe firsthand the issues experienced in the field.
                              Finally, area officials were tracking district performance

                                                6
Delivery and Retail Standard Operating Procedures –                       DR-MA-06-004
 Northeast Area

                              information monthly using a delivery standardization
                              implementation assessment worksheet.




                                                7
Delivery and Retail Standard Operating Procedures –                      DR-MA-06-004
 Northeast Area



                                 APPENDIX A
                            PRIOR AUDIT COVERAGE

City Letter Carrier Operations – Greater Indiana District (Report Number DR-AR-
06-003, dated March 28, 2006). The report outlined opportunities to improve the
management of city letter carrier operations in the Greater Indiana District.
Delivery facility supervisors and managers did not adequately match workhours
with workload. We projected the sample results for a total of 68,177 unjustified
hours over the 5-month period from January 1 through May 31, 2005, that were
not supported by volume or workload (total unrecoverable costs of $765,487).
We also noted that supervisors and managers did not always view DOIS reports
in a timely manner to manage operations, consistently use Managed Service
Points (MSP) to monitor city letter carriers’ street time to correct negative trends,
or properly document letter carriers’ unauthorized overtime occurrences and take
corrective action.

AM Standard Operating Procedures - Fiscal Year 2005 Financial Installation
Audit (Report Number FF-AR-06-096, dated March 20, 2006). The report
outlined that at 28 of the 36 post offices, stations, and branches where AMSOP
are applicable, management had begun implementation. Of those, 11 had
obtained certification and 17 were at various stages of certification. At the time of
our work, eight units had not begun implementation. Several factors contributed
to units not being certified. These factors included issues with the mail arrival
agreement with the processing and distribution plant, posting and following the
AMSOP, and Function 4 activities. We made no recommendations in this report
to management.

City Letter Carrier Operations – Detroit District (Report Number DR-AR-06-002,
dated February 8, 2006). The report outlined opportunities to improve the
management of city letter carrier operations in the Detroit District. Delivery
facility supervisors and managers did not adequately match workhours with
workload. We projected the sample results for a total of 59,208 unjustified hours
over the 5-month period from January 1 through May 31, 2005, that were not
supported by volume or workload (total unrecoverable costs of $723,586). We
also noted that supervisors and managers did not always view DOIS reports in a
timely manner to manage operations, consistently use MSP to monitor city letter
carriers’ street time to correct negative trends, or properly document letter
carriers’ unauthorized overtime occurrences and take corrective action.

Address Management Systems – Southwest Area – Rio Grande District (Report
Number DR-AR-06-001, dated January 25, 2006). The report outlined
opportunities to improve the quality of Address Management System (AMS) data
and put $988,945 of processing and delivery costs over the next 10 years to
better use. Management agreed with our findings and recommendations and the
$988,945 in funds put to better use.

                                                8
Delivery and Retail Standard Operating Procedures –                   DR-MA-06-004
 Northeast Area


City Letter Carrier Operations – Chicago District (Report Number DR-AR-05-019,
dated September 29, 2005). The report outlined opportunities to improve the
management of city letter carrier operations in the Chicago District. Delivery
facility supervisors and managers did not adequately match workhours with
workload. We projected the sample results for a total of 78,248 unjustified hours
over the 5-month period from September 1, 2004, through January 31, 2005, that
were not supported by volume or workload (total unrecoverable costs of
$2,020,200). We also noted that supervisors and managers did not always view
DOIS reports in a timely manner to manage operations, consistently use MSP to
monitor city letter carriers’ street time to correct negative trends, or properly
document letter carriers’ unauthorized overtime occurrences and take corrective
action.

City Letter Carrier Operations – Santa Ana District (Report Number DR-AR-05-
013, dated August 8, 2005). The report outlined opportunities to improve the
management of city letter carrier operations in the Santa Ana District. Delivery
facility supervisors and managers did not adequately match workhours with
workload. We projected the sample results for a total of 83,864 unjustified hours
over the 5-month period from May 1 through September 30, 2004, that were not
supported by volume or workload (total unrecoverable costs of $2,127,852). We
also noted that supervisors and managers did not always view DOIS reports in a
timely manner to manage operations, consistently use MSP to monitor city letter
carriers’ street time to correct negative trends, or properly document letter
carriers’ unauthorized overtime occurrences and take corrective action.

City Letter Carrier Operations – San Diego District (Report Number DR-AR-05-
014, dated August 8, 2005). The report outlined opportunities to improve the
management of city letter carrier operations in the San Diego District. Delivery
facility supervisors and managers did not adequately match workhours with
workload. We projected the sample results for a total of 53,835 unjustified hours
over the 5-month period from May 1 through September 30, 2004, that were not
supported by volume or workload (total unrecoverable costs of $1,423,935). We
also noted that supervisors and managers did not always view DOIS reports in a
timely manner to manage operations, consistently use MSP to monitor city letter
carriers’ street time to correct negative trends, or properly document letter
carriers’ unauthorized overtime occurrences and take corrective action.

City Letter Carrier Operations – Rio Grande District (Report Number DR-AR-05-
009, dated December 2, 2004). The report outlined opportunities to improve
management of city letter carrier operations in the Rio Grande District. Delivery
facility supervisors and managers did not adequately match workhours with
workload. We projected that the three delivery facilities had 5,318 unjustified
hours (at an estimated cost of $193,947) not supported by volume or workload
over a 5-month period. We reported 2,543 of the unjustified hours – or $92,762 –
as unrecoverable costs. We also noted that supervisors and managers did not
effectively use DOIS to manage daily operations, and delivery unit supervisors

                                                9
Delivery and Retail Standard Operating Procedures –                    DR-MA-06-004
 Northeast Area

and managers did not consistently perform street management or effectively use
MSP to monitor city letter carriers’ street time to correct negative trends.

Function 4 – Customer Service Operations (Report Number DR-AR-04-014,
dated September 30, 2004). The Postal Service can improve the effectiveness
and efficiency of the Function 4 process in meeting or exceeding its program
goals of monitoring and measuring the potential savings of customer service
operations. Specifically, Postal Service managers could improve customer
service operations by fully utilizing the standardized Function 4 reviews and
sharing proven practices.

City Letter Carrier Office Preparation in the Dallas District (Report Number
DR-AR-04-005, dated July 26, 2004). The report stated that opportunities exist
to improve Dallas District city letter carrier office preparation operations.
Specifically, impediments existed that adversely impacted delivery supervisors
and managers’ ability to adequately match workhours with workload. In addition,
city letter carriers’ work activities were not always appropriate to ensure they
departed the delivery unit as scheduled. Further, supervisors and managers did
not use the DOIS to assist in managing office activities.

City Letter Carrier Street Management and Route Inspections in the Fort Worth
District (Report Number DR-AR-04-001, dated June 22, 2004). The report stated
that street management and route inspections were generally efficient and
effective at the XXXXXX and XXXXXXXX Stations. Delivery unit supervisors
monitored city delivery carrier’s street time to conserve workhours by performing
at least the minimum number of required street observations. However, while a
route inspection was conducted at the XXXXXX Station delivery unit, post route
adjustment procedures were not followed to maintain routes at 8 hours.

City Carrier Productivity - Letter Carrier Delays in the Baltimore District (Report
Number TD-AR-03-011, dated July 28, 2003). The report stated that early
reporting wasted carriers’ morning time and exposed the Baltimore District to
potential unnecessary evening overtime costs. The report noted supervisors and
managers were not using DOIS to manage carrier schedules and, consequently,
could not use the system to evaluate carrier scheduling or take corrective action.




                                               10
Delivery and Retail Standard Operating Procedures –                                     DR-MA-06-004
 Northeast Area



                     APPENDIX B
         NORTHEAST AREA IMPLEMENTATION OF
DELIVERY AND RETAIL STANDARD OPERATING PROCEDURES



                                      Northeast Area
                                         Officials
                                       Implemented       Dates SOP        SOP Areas for
                                                                                      12
                SOP Areas               Procedures      Implemented       Improvement
                City Delivery
                AMSOP                       Yes         October 2005            No
                Integrated
                Operations                  Yes         October 2005            No
                Delivery Point
                Sequencing                  Yes         October 2005            No
                Collection Point
                Management                  Yes         October 2005            No
                Scanning
                Performance                 Yes         October 2005            No
                Matching
                Workhours to                            October 2005            No
                Workload                    Yes
                Volume Recording            Yes         October 2005            No
                Route Evaluations
                and Adjustments             Yes         October 2005            No
                “Vital Few” Service
                Improvements                Yes         October 2005            No
                Rural Delivery
                RDSOP                       Yes         October 2005            No
                Growth and
                Delivery Point
                Mgmt                        Yes         October 2005            No
                Function 4
                Function 4
                Business Review             Yes         October 2005            No
                RDM WOS                     Yes         October 2005            No

                    Source: Information provided by Postal Service Northeast Area officials




12
     OIG determination based on review results.

                                                   11
